<html>
<title> - COMBATING GANG VIOLENCE IN AMERICA: EXAMINING EFFECTIVE FEDERAL, STATE AND LOCAL LAW ENFORCEMENT STRATEGIES</title>
<body><pre>[Senate Hearing 108-429]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-429

                  COMBATING GANG VIOLENCE IN AMERICA: 
EXAMINING EFFECTIVE FEDERAL, STATE AND LOCAL LAW ENFORCEMENT STRATEGIES

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 17, 2003

                               __________

                          Serial No. J-108-42

                               __________

         Printed for the use of the Committee on the Judiciary




93-250              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                     ORRIN G. HATCH, Utah, Chairman
CHARLES E. GRASSLEY, Iowa            PATRICK J. LEAHY, Vermont
ARLEN SPECTER, Pennsylvania          EDWARD M. KENNEDY, Massachusetts
JON KYL, Arizona                     JOSEPH R. BIDEN, Jr., Delaware
MIKE DeWINE, Ohio                    HERBERT KOHL, Wisconsin
JEFF SESSIONS, Alabama               DIANNE FEINSTEIN, California
LINDSEY O. GRAHAM, South Carolina    RUSSELL D. FEINGOLD, Wisconsin
LARRY E. CRAIG, Idaho                CHARLES E. SCHUMER, New York
SAXBY CHAMBLISS, Georgia             RICHARD J. DURBIN, Illinois
JOHN CORNYN, Texas                   JOHN EDWARDS, North Carolina
             Bruce Artim, Chief Counsel and Staff Director
      Bruce A. Cohen, Democratic Chief Counsel and Staff Director


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Durbin, Hon. Richard J., a U.S. Senator from the State of 
  Illinois.......................................................     4
Feinstein, Hon. Dianne, a U.S. Senator from the State of 
  California.....................................................     3
Hatch, Orrin G., a U.S. Senator from the State of Utah, prepared 
  statement......................................................    92
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont, 
  prepared statement.............................................   103
Sessions, Hon. Jeff, a U.S. Senator from the State of Alabama....     1

                               WITNESSES

Ashley, Grant D., Special Agent, Assistant Director, FBI Criminal 
  Investigative Division, Washington, D.C........................    11
Christie, Christopher J., U.S. Attorney, District of New Jersey, 
  Newark, New Jersey.............................................     9
Fitzgerald, Patrick, U.S. Attorney, Northern District of 
  Illinois, Chicago, Illinois....................................     5
Jordan, Eddie J., Jr., District Attorney, District of New 
  Orleans, New Orleans, Louisiana................................    21
McBride, Wesley D., President California Gang Investigators 
  Association, Huntington, Beach, California.....................    25
McCulloch, Robert P., President, National District Attorneys 
  Association, Alexandria, Virginia..............................    23
Yang, Debra W., U.S. Attorney, Central District of California, 
  Los Angeles, California........................................     7

                         QUESTIONS AND ANSWERS

Responses of Christopher J. Christie to questions submitted by 
  Senators Chambliss and Leahy...................................    36
Responses of Patrick Fitzgerald to questions submitted by 
  Senators Chambliss and Leahy...................................    43
Responses of Debra W. Yang to questions submitted by Senator 
  Chambliss......................................................    50
Responses of Robert P. McCulloch to a question submitted by 
  Senator Leahy..................................................    55
Responses of Eddie J. Jordan to questions submitted by Senator 
  Leahy..........................................................    56

                       SUBMISSIONS FOR THE RECORD

Ashley, Grant D., Special Agent, Assistant Director, FBI Criminal 
  Investigative Division, Washington, D.C., prepared statement...    58
Christie, Christopher J., U.S. Attorney, District of New Jersey, 
  Newark, New Jersey, prepared statement.........................    72
Fitzgerald, Patrick, U.S. Attorney, Northern District of 
  Illinois, Chicago, Illinois, prepared statement................    82
Jordan, Eddie J., Jr., District Attorney, District of New 
  Orleans, New Orleans, Louisiana, prepared statement............    93
McBride, Wesley D., President California Gang Investigators 
  Association, Huntington, Beach, California, prepared statement.   105
McCulloch, Robert P., President, National District Attorneys 
  Association, Alexandria, Virginia, prepared statement..........   108
Yang, Debra W., U.S. Attorney, Central District of California, 
  Los Angeles, California, prepared statement....................   118

 
COMBATING GANG VIOLENCE IN AMERICA: EXAMINING EFFECTIVE FEDERAL, STATE 
                  AND LOCAL LAW ENFORCEMENT STRATEGIES

                              ----------                              


                     WEDNESDAY, SEPTEMBER 17, 2003

                              United States Senate,
                                Committee on the Judiciary,
                                                   Washington, D.C.
    The Committee met, pursuant to notice, at 2:00 p.m., in 
Room SD-226, Dirksen Senate Office Building, Hon. Jeff Sessions 
presiding.
    Present: Senators Sessions, Feinstein, and Durbin.

 OPENING STATEMENT OF HON. JEFF SESSIONS, A U.S. SENATOR FROM 
                       THE STATE OF TEXAS

    Senator Sessions. Good afternoon. We're glad you are here. 
It is a good looking panel out there. As a former United States 
Attorney, it's the best looking panel I think I have ever seen, 
three out of the four of you there.
    I would like to welcome everyone to this important hearing 
on the issue of the problem of gang violence in America. 
Chairman Hatch very much wanted to chair this hearing but was 
not able to do so today. It was just unavoidable and he asked 
me to do so. I look forward to that.
    The problem of gang violence is not a new one, nor is it a 
problem limited only to the urban areas. Once thought to be 
only a problem of our Nation's largest cities, gangs have 
invaded smaller communities. I have seen that personally in 
Alabama.
    Gangs in America are no longer the romanticized, movie-like 
characters depicted in ``West Side Story''. In reality, gangs 
now resemble organized crime syndicates, who readily engage in 
gun violence, illegal gun trafficking, illegal drug 
trafficking, and other serious crimes.
    All too often we read in the headlines about gruesome and 
tragic stories of rival gang members gunned down, with innocent 
bystanders, adults and teenagers and children caught in the 
cross fire of gangland shootings, and family members crying out 
in grief as they lose loved ones to the gang wars plaguing our 
communities.
    Recent studies confirm that gang violence is an increasing 
problem in all of our communities. Based on the latest 
available national youth gang survey, it is now estimated that 
there are more than 25,000 gangs and over 750,000 gang members 
who are active in more than 3,000 jurisdictions throughout the 
United States. Current surveys now show that gang activity is 
once again on the rise.
    While we are all committed to fighting the global war on 
terrorism, we must redouble our efforts to ensure that we 
devote sufficient resources to combatting this important 
national problem.
    I have been and remain committed to supporting Federal, 
State and local task forces as a model for effective gang 
enforcement. Working together, these task forces have 
demonstrated they can make a difference in the communities. We 
must act in a bipartisan fashion to ensure that adequate 
resources are available to all of our communities to expand and 
fund these critical task force operations.
    I am also mindful of the fact that, to be successful in 
reducing gang violence, we must address not only effective law 
enforcement strategies, but we also must take steps to protect 
our youth so that the next generation does not fall into the 
abyss of gang life which so often includes gun violence, drug 
trafficking, and other serious crimes.
    The young people of our cities need to be steered away from 
gang involvement. We need to ensure that there are sufficient 
tools to intervene in the lives of these troubled youth. 
Federal involvement is crucial to the control of gang violence 
and to prevent new gang members from replacing old gang 
members.
    I would just add parenthetically that I had the honor to 
represent Senator Hatch this morning before the National 
Conference of the Boys and Girls Clubs of America, which I 
think is one of the most cost-effective methods that this 
country has, probably the most. The National Center for 
Philanthropy has rated the Boys and Girls Club number one for 
youth activities and in helping youth for the ninth consecutive 
year. But there are programs like that that are important, that 
are receiving both local support and are receiving support from 
the Federal Government.
    So we must take a proactive approach to solving this 
problem. We need to educate ourselves and redouble our efforts 
to fight gang violence. If we really want to reduce gang 
violence, we need to ensure that law enforcement has adequate 
resources and legal tools, and that our communities have the 
ability to implement proven intervention and prevention 
strategies so that gang members who are removed from the 
community are not simply replaced by the next generation of new 
gang members.
    So I want to take a few moments here to express my 
appreciation for Senator Feinstein. She has worked with Senator 
Hatch and I in the past on gang legislation, and I expect she 
will be able to join us later on today.
    So, without further ado, I would be delighted to hear from 
our panelists. I believe there is much that we can do to deal 
with this problem. I would like very much to hear from you, 
your ideas and suggestions on the current situation on the 
streets of America.
    Senator Feinstein, it's good to see you. I just made 
reference to your interest in this issue for a number of years. 
I was just going to the panel, but now I would be delighted if 
you would like to make some comments before we do that.

  STATEMENT OF HON. DIANNE FEINSTEIN, A U.S. SENATOR FROM THE 
                      STATE OF CALIFORNIA

    Senator Feinstein. Thank you very much, Mr. Chairman.
    I would really like to make some comments. I would like to 
thank Chairman Hatch for holding this hearing, and you for 
chairing it. I understand the Chairman had a small accident and 
hopefully he's fine.
    In 1996, Chairman Hatch was good enough to join me in my 
efforts to address this problem through legislation. In that 
year we introduced our first bill, in April, and we have been 
trying to get at this ever since. We have introduced 
legislation in each of the last four Congresses--the 4th, the 
5th, the 6th and the 7th. Our efforts have focused on targeting 
those who recruit and use minors in gang crimes, and those who 
travel in interstate commerce to further gang activity.
    We have also worked to provide for more cooperation between 
Federal and local officials, and to make it easier for 
prosecutors to go after gang members who commit serious or 
violent crimes on behalf of their gangs.
    Now, so far we have not succeeded. We did offer an anti 
gang amendment to the juvenile justice bill in the 106th 
Congress. That passed 96-3. The legislation never made it to 
the President's desk for other reasons. So the problem has just 
gotten worse.
    For example, in 2002, there were over 650 homicides in Los 
Angeles in that year. Half of them were gang related. Homicides 
are up 11 percent over last year. And law enforcement believes 
that much of this increase is due to gang activity. There are 
more than 100,000 gang members and associates in Los Angeles, 
and at least 200 active gangs there.
    I am often struck by how vicious gang crimes can be and how 
damaging they are to their victims. I want to just give you a 
couple of examples.
    In 2000, gang members tried to rob a passerby with an 
assault weapon from their car. When the victim resisted, the 
gang shot the victim 17 times. Only two months before that, two 
rival gangs had a shootout in San Francisco's Mission District 
and an innocent bystander was caught in the cross fire and shot 
through both legs. I mean, I have seen stories of weapons 
fired, bullets going through walls from gangs, killing children 
in their beds, killing a grandmother ironing at her ironing 
board. I walked around a block in Los Angeles where, in a two-
week span, about seven people had been shot dead by gangs.
    The evolution of gangs is interesting. In 1980, there were 
gangs in 286 jurisdictions. Today, they're in 1,500 
jurisdictions throughout the United States. In 1980, there were 
about 2,000 gangs; today, there are 26,000 different gangs. In 
1980, there were about 100,000 gang members; today, there are 
more than 800,000 gang members in the United States.
    In addition, gangs have gone from relatively disorganized 
groups of street toughs to highly disciplined, hierarchical 
corporations, often encompassing numerous jurisdictions. That's 
where we come in.
    For example, the Gangster Disciples has a chairman of the 
board, two boards of directors, one for prisons and one for 
streets, governors, regents, area coordinators, enforcers and 
``shorties'', the youth who staff drug selling sites and help 
with drug dealers.
    For 1987 to 1994, this gang was responsible for killing 
more than 200 people. One-half of their arrests were for drug 
offenses, and only one-third for nonlethal offenses.
    In 1996, the Gangster Disciples Nation and other Chicago 
based gangs were in 110 jurisdictions in 35 States. I am 
delighted the Senator from Illinois has just come in. Southern 
California based gangs are equally well dispersed. In 1994, 
gangs claiming affiliation with the Bloods or Crips, both of 
whom are based in southern California, were in 180 
jurisdictions in 42 States.
    As a result of such dispersal, violent criminal gangs can 
be found today in rural areas. Washington State law enforcement 
has told us about one gang member they traced from Compton, CA 
to San Francisco, then to Portland, Seattle, Billings, and 
finally to Sioux Falls, SD.
    The Justice Department has found that from the seventies to 
the nineties, the number of small cities or towns--those with 
populations of less than 10,000--with gangs increased by 15 to 
39 times. This is a larger relative increase than for cities 
with populations larger than 10,000.
    Now, as they have increased, so have all forms of violence. 
I don't want to take any more time, but I can go on with that.
    What I want to do--and I think Chairman Hatch has agreed--
is make it a Federal crime to recruit as juvenile into a gang 
that crosses State lines, that commits certain crimes, and 
subject that to a minimum sentence of three years--the 
recruitment of as juvenile to a gang. We have to stop this. The 
killings just can't go on. They are wanton, they are evil.
    The two Williams sisters, great tennis stars, just had 
their half-sister slain in what looks like it might have some 
relationship to gang activity. It goes on and on and on. So I 
am hopeful that the Chairman and I will finally be able to move 
this bill. Our original bill established some racketeering 
statute predicates for gang crimes. I know the Chairman wants 
to go in a slightly different way now, which is fine with me. 
But I think we really need to get this bill moving and out.
    I thank you very much for the opportunity.
    Senator Sessions. Thank you, Senator Feinstein. You are 
knowledgeable and have been committed to that.
    Senator Durbin, you have a U.S. Attorney here, and if you 
have any opening comments, we would be glad to hear those.

 STATEMENT OF HON. RICHARD J. DURBIN, A U.S. SENATOR FROM THE 
                       STATE OF ILLINOIS

    Senator Durbin. Thank you, Senator Sessions, and thank you 
for presiding over this hearing, and I am particularly honored 
that U.S. Attorney Patrick Fitzgerald of the Northern District 
of Illinois is here. My colleague, Senator Peter Fitzgerald, as 
they often say in the newspaper, ``no relation,'' appointed him 
as U.S. Attorney. He has done a terrific job, and I was happy 
to support his nomination.
    I am glad that we are going to broach this topic. 25 
percent of gang members nationwide are in Los Angeles, LA 
County and Chicago. I am pleased that the two U.S. Attorneys 
from these areas are going to tell us about their strategies to 
deal with gang crime. Chicago is a great city. I am honored to 
represent it and glad every moment I spend there. It is 
heartbreaking when you look at the murder rate in this city, 
and particularly when you see the victims, kids, innocent kids 
caught in gang cross-fire, some kids mistakenly or for whatever 
reason drawn in to these gang battles, and it just breaks your 
heart to see it. Mayor Daley has been very responsive to this 
as has State's Attorney Dick Devine and U.S. Attorney Patrick 
Fitzgerald. But I think we need to do more.
    We lost 650 people last year as victims of homicide in 
Chicago, three times the number of New York. It breaks my heart 
to say that, but it is a fact, and we have to deal with it 
squarely.
    There is an issue here that is part of this conversation 
that I hope to raise that some members do not want to talk 
about and that is, where are they getting the firearms they are 
using to kill other people? I think that has to be part of this 
conversation, and if we do not have an honest discussion about 
that, we are addressing only part of the problem. Let us be 
honest enough to address it completely.
    Thank you.
    Senator Sessions. We are pleased to have a panel today who 
can answer some of the questions raised for sure. We have two 
panels. Our first panel will have three United States Attorneys 
and the Assistant Director of the FBI. Mr. Patrick Fitzgerald 
is a United States Attorney from the Northern District of 
Illinois; Ms. Debra Yang is the United States Attorney for the 
Central District of California; and Mr. Christopher Christie is 
United States Attorney for the District of New Jersey. Mr. 
Grant Ashley is an Assistant Director of the FBI for the 
Criminal Investigative Division. All of these witnesses have 
extensive experience combating gang violence and will bring 
unique perspective to the problems. So if there are no further 
comments--
    Senator Feinstein. Mr. Chairman, would you just allow me to 
welcome Ms. Yang?
    Senator Sessions. Yes, please.
    Senator Feinstein. I came in here very fast and did not 
realize that you were here. As you know, she is U.S. Attorney 
over a huge Los Angeles office, and I just want her to know how 
welcome she is. Thank you.
    Senator Sessions. Mr. Fitzgerald?

   STATEMENT OF PATRICK FITZGERALD, UNITED STATES ATTORNEY, 
        NORTHERN DISTRICT OF ILLINOIS, CHICAGO, ILLINOIS

    Mr. Fitzgerald. Thank you, Senator. Good afternoon. My name 
is Pat Fitzgerald, and I am the United States Attorney for the 
Northern District of Illinois. It is truly an honor to appear 
before this Committee and I am very gratified that we are 
having this hearing on this particular problem.
    I think when you look at the problem that plagues America 
these days of violence, but particularly urban violence, both 
in cities as large as Chicago and in smaller urban areas, we 
have to recognize that the problem of violence has three 
different legs: gangs, drugs and guns, and often we do not pay 
enough attention to that leg of the problem that consists of 
gangs.
    I will briefly talk about some statistics. Senator Durbin 
already mentioned that we have a homicide rate in Chicago last 
year three times the per capita rate of New York, and of those 
homicides, so far this year it is estimated that 45 percent are 
gang related. Last year it was estimated that 60 percent were 
gang related. That is a serious problem.
    The chilling statistic made real is to learn that it has 
been estimated that every two weeks a Chicago Public School 
student loses his life or her life to gun violence, and since 
school opened several students have been shot. Yesterday a 15-
year-old was killed in Chicago as a result of that violence.
    I think if we look at the statistics, Senator Feinstein 
mentioned the Gangster Disciples. One chilling fact is to look 
back that in 1995 during a Federal search of the Gangster 
Disciples, a membership list was recovered of employees that 
listed 7,000 people working for the Gangster Disciples, selling 
drugs, almost half the size of the Chicago Police Department. 
That puts in perspective precisely what Senator Sessions said. 
This is not about West Side Story. This is an organized crime 
syndicate that is very well organized and very violent.
    The other chilling fact is to look at how gangs can 
corrupt. Just a few weeks ago we arrested several prison 
officers in an Illinois jail, one of whom was a gang member 
himself, who was bringing drugs in to 9 different gang members 
in jail, 6 of whom had been convicted of murder. We have 
prosecuted police officers who were working with other police 
officers to steal drugs from gangs and sell them. Gangs are 
extensive, they are violent and they corrupt.
    In looking at the problem of violence we recognize that 
every time we went after the problem of guns we ended up 
looking at gangs as well. We recognize that when we went after 
the problem of drugs, we looked at gangs as well. We recognize 
we also have to focus on gangs as gangs.
    In my own office we have restructured the Narcotics Section 
to become the Narcotics and Gangs Section. Half the attorneys 
work with agents and police to work on national and 
international cartels. The other half work on gang cases. But 
we recognize they run into each other all the time because the 
gangs are the source of supply for those cartels.
    One thing we have done is we have recognized that this has 
to be a bipartisan Federal, State and local joint effort. We 
are working extremely well with the State's Attorney's Offices 
in Illinois, particularly Dick Devine, the Cook County State's 
Attorney. We are working well with the Federal agencies and the 
local agencies to partner together. We form gang strategy teams 
to make sure we share information that the FBI develops as part 
of its investigations, that DEA develops, that ATF develops and 
the local police, to make sure we are doing the best we can 
with our resources to focus on those gangs and the leadership 
of those gangs.
    We are taking advantage of the Project Safe Neighborhoods' 
effort against guns to go after the worst offenders in 
particular districts, with special emphasis on four districts 
in Chicago that seem to be the most violent. We are sitting 
down jointly with State prosecutors, the Chicago Police 
Department and ATF and saying, ``Who are the worst offenders 
most likely to kill,'' and selecting them for Federal 
prosecution as a joint decision in making sure that we send 
those people away for the harsher sentences.
    We also recognize that half the battle is to deter people 
from joining gangs and carrying guns. So we are having parolee 
forums, where we meet with parolees as they are released from 
prison, 30 at a time, and present them with two stark images, 
what will happen to them if we catch them breaking the law and 
carrying a gun and what the alternatives are.
    We recognize that the effort has to be joint. We cannot do 
it alone and the State and local authorities cannot do it 
alone, and it is a true partnership. It is not about seeing who 
gets credit and what court the case is prosecuted in. The 
mandate is to get results.
    I think the most important thing we can do is to make sure 
we keep up that fight on a bipartisan, Federal, State and local 
effort as a joint effort, and recognize that gangs are at the 
core of the problem, and send the message out that if people 
participate in gangs they will get our attention and that we 
will bring prosecutive efforts.
    The message of hope that we can get from some examples 
besides the rate of violence in Chicago is what we saw in 
Joliet, another city in my district, where the FBI went after 
some gang members and went after particular offenders 
associated with gangs a couple of years ago. As a result of 
those prosecutions, we saw the rate of shootings drop 40 
percent and murders drop 50 percent. We saw that in another 
city, another area in the district in Aurora. So we recognize 
that there is hope, that by being smart and by focusing our 
efforts correctly and working together, we can see results as 
to what is an extremely vexing problem that plagues my district 
but really the whole country.
    Thank you.
    [The prepared statement of Mr. Fitzgerald appears as a 
submission for the record.]
    Senator Sessions. Thank you, Mr. Fitzgerald. I would just 
add that I definitely agree that well-applied law enforcement 
can make communities safer. At one point we got to the view 
somehow that nothing we did made any difference, but it does 
made a difference. It is done in New York and Boston, and some 
Alabama areas I know about it made a difference, and I 
appreciate your leadership.
    U.S. Attorney Yang.

  STATEMENT OF DEBRA W. YANG, UNITED STATES ATTORNEY, CENTRAL 
        DISTRICT OF CALIFORNIA, LOS ANGELES, CALIFORNIA

    Ms. Yang. Thank you, Chairman, and thank you for having us 
here today, and other members of the Subcommittee.
    I am Debra Yang, and I am the United States Attorney in Los 
Angeles. I cover the Central District of California which 
encompasses about 17 million people.
    I have to say that I am extremely gratified that we are 
discussing this subject today. On a personal note, as a young 
girl growing up in Chinatown I was surrounded by Asian gangs 
and always told to stay away from a particular group called the 
Hua Ch'iao, who are still currently in existence, if not even 
stronger now. And when I moved on to junior high school there 
were gangs there by the name of avenues, Frogtown, Tuners, that 
I also tried to stay away from, who are still in existence and 
part of the focus of what we do now in my office. So it is a 
longstanding problem that we definitely need to address.
    I will say that violent crime and narcotics distribution by 
street gangs has been a significant problem in the Central 
District. As Senator Feinstein alluded to earlier, the 
statistics are staggering. In Los Angeles County alone 
conservative estimates put street gangs at about 1,000. This is 
just in Los Angeles County. The number of individual gang 
members in those street gangs at 150,000. In addition, there is 
approximately another 20,000 gang members in Orange County, 
Ventura and San Bernardino Counties, which are in my district. 
I will say that gangs are the driving force behind the homicide 
rate in my district, and that fully half of all gang members in 
the District are believed to participate in violence connected 
to the distribution of narcotics. Indeed, the homicide rate in 
Los Angeles was probably one of the highest in the country last 
year.
    Los Angeles is known as what is called a source city. We 
export gang members, violent gang members, across the country, 
across State lines. Members and cliques of the Los Angeles-
based 18th Street Gang have migrated outside of California into 
the southwest border up into the Pacific Northwest, out to New 
Jersey, Mexico, El Salvador. There is a current case pending 
right now in Tennessee. We have also tracked Los Angeles-based 
gang members to Indianapolis, Oklahoma, Omaha, Raleigh and St. 
Louis, and this only arises out of a few cases that are going 
on in the office right now.
    My district has focused on the investigation and 
prosecutions of gangs and gang members since 1992. It 
essentially arose out of the wake of the Los Angeles riots. The 
intense focus has continued unabated. What we have done is we 
have worked in a collaborative manner, because in order for us 
to respond to the problem on a Federal level, we have to have 
the intelligence that is gained on the street side through the 
local law enforcement officers. As a result I have sought to 
make our district a leader in targeting criminal street gangs 
as criminal enterprises, and focusing on the gang leaders where 
appropriate, while at the same time continuing to target gang 
individuals, the so-called soldiers for Federal crimes and 
criminal conspiracies where appropriate.
    We use such Federal legislation such as RICO, VICAR, money 
laundering statutes and the more traditional narcotics statutes 
and firearms statutes to aid us in that regard. In essence we 
try to focus on what I call the big Federal cases, where we can 
strike to the heart of a gang and try to take out the entire 
entity as opposed to just picking off individuals and not 
really getting to the root of the problem.
    A prime example of our long-term investigation and 
prosecution strategy for organized street crimes was recently 
in the case of the 18th Street Gang and against the Mexican 
Mafia. This investigation spanned four years from beginning to 
end and led to the convictions of more than 75 Mexican Mafia 
members and 18th Street Gang leaders. The Mexican Mafia is a 
hispanic street gang which is believed to have upwards of 
10,000 members in California as well as in Mexico and El 
Salvador. During that time it took an arsenal of resources, 
both Federal and local, to put that case together. A total of 
19 search warrants were executed during that time, a total of 
26 defendants were ultimately charged, and all were convicted.
    This case in particular marked the first time that my 
district used the RICO statute against a street gang, and a 
street gang is vastly different from a prison gang, much more 
loosely organized, not as hierarchical, much more fluid, 
because they pick up with other crews from other neighborhoods. 
This was something that took a tremendous amount of resources. 
We ultimately were able to get about $2 million in narcotics 
proceeds which were forfeited to the Government, and most 
importantly, the efforts had an extremely positive effect on 
the quality of life in the MacArthur Park District of 
California. For those of you who are not from California, it is 
right on the Wilshire Corridor. It is in the center of 
California, right next to the LA County Museum of Art, right 
next to the Otis School of Design, right in the heart of 
downtown. This two-mile radius has managed to sort of have a 
stronghold. It is also known as the Rampart area, and we were 
able to sort of clean that up and improve the quality of life 
there.
    I want to say that one of the other things that we have 
managed to do is sort of work hand-in-hand with the FBI, ATF. 
We currently have an ACES program going on where there are 60 
agents who have been deployed to our jurisdiction for a period 
of 6 months. DEA's Met team, where they go in and they focus on 
certain areas where the homicide rate has been extremely high 
and try to get to the root of the problem, and as we work in 
conjunction with them, that is how we essentially try to 
eradicate some of the problems that we see.
    Thank you, Senators.
    [The prepared statement of Ms. Yang appears as a submission 
for the record.]
    Senator Sessions. Very well said, and that is impressive. I 
have no doubt that if you maintain that pressure in targeted 
areas, you will see a reduction in rime in those areas.
    Mr. Christie.

 STATEMENT OF CHRISTOPHER J. CHRISTIE, UNITED STATES ATTORNEY, 
           DISTRICT OF NEW JERSEY, NEWARK, NEW JERSEY

    Mr. Christie. Thank you, Mr. Chairman, members of the 
Committee. It is an honor for me to appear today before the 
Committee along with my colleagues from Chicago and Los 
Angeles, and I think it shows what a national problem this is, 
that you have someone here from New Jersey, someone from the 
midwest in Chicago, and someone from the West Coast in Los 
Angeles. This problem is now a national problem and it is 
getting worse.
    In May of 2002, early in my term, in response to a steadily 
escalating gang problem in New Jersey, we created a violent 
crime unit within the U.S. Attorney's Office, and they were to 
target street gangs, violent narcotic enterprises and firearms 
trafficking networks. We have 10 experienced Federal 
prosecutors in my office that are assigned to this unit and are 
working on fighting this new brand of organized crime.
    As Debra said very well, these gangs are structured. They 
are sophisticated criminal organizations. In New Jersey they 
have a clear hierarchy in their decision making and in 
distributing the criminal proceeds among the gang members. So 
this sophistication is now allowing them to have considerably 
longer life spans than gangs were maybe 20 years ago. These 
gangs operate like big businesses, and albeit they are 
businesses that are unrestricted by any sense of right and 
wrong, but they are operating like businesses.
    They typically work in the narcotic drug market and they 
work to build and expand that territory and to exploit it. We 
have one particular gang that I will talk about in a moment 
that was bringing in proceeds of nearly a million dollars a 
week in the northern part of New Jersey from heroin 
trafficking. We have to though, I think, work with our local 
and State partners, and one case that we worked on in 
particular was regarding the Latin Kings, which is a national 
gang. We were able to work with our partners in the State 
Police in New Jersey and the State Attorney General's Office, 
to bring down 53 members of the leadership of the Latin Kings, 
from the person who was in charge of the Latin Kings in New 
Jersey, on down through the leadership. This leadership in the 
Latin Kings in particular is male and female, and these people 
were brought down and arrested. The charges were split up 
between some being prosecuted by my office, some by the State 
Attorney General and some by local county prosecutors. We have 
tried to use that as a model to be able to bring other large 
street gangs under control in our district.
    We have also used Project Safe Neighborhoods and its 
emphasis on trying to get guns off the streets of our cities, 
along with the FBI and the DEA and ATF and local authorities to 
try to work together to get the guns off the streets. It is, as 
Pat said I think, we have to talk about those issues. Those 
things coalesce, the guns, drugs and the gangs. That is their 
currency that they deal in. The other currency that they deal 
in is something that Senator Feinstein pointed out, which is 
the recruiting of juveniles. These juveniles are their 
currency. This is what they deal in. They are the most 
expendable to them. They are the ones most likely to be 
arrested by local law enforcement authorities because they are 
the soldiers on the street, and they do not include them in the 
hierarchy of the gang so that they cannot give any information 
to law enforcement that would harm the leaders of the gang and 
the leaders of the gang see them as expendable, both in terms 
of them being brought to jail or being killed on the streets.
    We have a set of the Bloods in New Jersey called the Double 
``ii'' set that comes this way. The Bloods began in Inglewood, 
California. They take the ``I'' from Inglewood, California and 
since their home is in East Orange, New Jersey, which they 
refer to as Ill-Town, that is how they get the Double ``ii'' 
set of the Bloods. We have been working with our PSN research 
partner, which in New Jersey is Rutgers University, and 
identified the Double ``ii'' set of the Bloods as the most 
violent gang in the State of New Jersey, and so we have begun 
to focus our resources on them. We have charged now seven 
members and associates of this gang with drug conspiracy and 
using firearms in furtherance of drug trafficking. It is a very 
important case for us.
    One anecdote that you might find interesting. They have 
weekly gang meetings, and the gang members come to those 
meetings, and all of them are required to contribute $31 at 
every meeting. This goes into a fund for bail money and to buy 
firearms. When new members are initiated or ``coming home,'' as 
they call it, to the gang, you come to this meeting and you are 
beaten by gang members for 31 seconds, and sometimes for 
several 31-second rounds. So why the number 31? Because the 
Bloods' code of conduct has 31 rules and rule 31 is ``I will 
have love for my Bloods.'' The payment of the $31 is a token of 
the loyalty oath, and the 31-second beating reinforces the 
discipline of the code of conduct. That is the way they enforce 
their rules.
    These people also traffic in guns and briefly, I think it 
is important, and we have started to focus in New Jersey 
because we have particularly tough gun laws, State gun laws in 
New Jersey. The trafficking that is coming into New Jersey in 
guns is a particular problem, and we have begun to work with 
ATF to target out-of-state gun dealers who enable a pipeline of 
weapons into New Jersey, to flow through gangs like the Bloods. 
We have recently had a case where Federal agents intervened and 
cut off the gun supply from another state and the gang had 
sought to begun to supply other neighborhood gangs, getting 
into that business to make money.
    They work in a very organized, hierarchical way and a very 
violent way. We are working in New Jersey to try to make sure 
that we focus on those bigger problems and work with local law 
enforcement.
    I thank you for the time.
    [The prepared statement of Mr. Christie appears as a 
submission for the record.]
    Senator Sessions. Thank you.
    Mr. Grant Ashley, Assistant Director of the FBI, Criminal 
Investigative Division.

STATEMENT OF GRANT D. ASHLEY, ASSISTANT DIRECTOR, FBI, CRIMINAL 
            INVESTIGATIVE DIVISION, WASHINGTON, D.C.

    Mr. Ashley. Thank you, Mr. Chairman, and members of the 
Committee. I appreciate the opportunity to speak to you 
regarding this important problem, and I thank you for your 
support regarding gang investigations. I also want to thank the 
United States Attorneys who are partners in this very important 
effort, and without them, we would not be able to do the things 
that we do.
    I am going to speak from a national perspective from the 
investigative side, and I am currently responsible for the 
criminal investigations conducted by the FBI. As a native son 
of Los Angeles, I assisted in setting up the early gang 
investigations in the late 80's there, and I supervised violent 
crimes in Chicago for almost 6 years. I am very familiar with 
the problem both from a personal as well as a national 
perspective, as is my brother who is a lieutenant in the LAPD, 
and my sister, who is a judge in California. Okay, I am done 
with the family stuff.
    On January 9th of 1992, the FBI announced the Safe Streets 
Violent Crimes Initiative. This initiative was designed to 
allow our local Special Agents in Charge of each FBI office to 
develop long-term and proactive task forces with their partner 
police agencies and other Federal agencies. They focused on 
violent gangs, other crimes of violence, and the apprehension 
of violent fugitives. Since 1992 these task forces have 
successfully aligned FBI agents with their local law 
enforcement counterparts, as well as the other Federal law 
enforcement, and our prosecutive partners to combat violent 
gangs. Task forces bring together all of these agencies in a 
force multiplier concept, and allows the unique expertise of 
each of the participating agencies to be deployed in a very 
efficient manner.
    This approach also yields information sharing among the 
agencies. The task forces are very effective. They are 
efficient, and they are economical. Where joint goals are met, 
they bring together the investigative as well as the patrol and 
other information, and, they leverage components of the 
participants. To focus the task force efforts, the FBI 
developed a national violent crime strategy. There is a 
national strategy for organized drug investigations, as well as 
a national gang strategy. These serve as the framework for 
combating violence in America, and each of these strategies 
uses a component of the Safe Streets Task Force with a 
comprehensive plan.
    The basic missions of the task forces, Safe Street Task 
Forces, are to focus primarily upon street gang and drug-
related violence, address specific violent crime problems, and 
seek the most significant violent crime fugitives through 
teaming of Federal, State and local law enforcement officers 
with prosecutors, to conduct long-term proactive 
investigations, utilizing sophisticated techniques as 
necessary.
    The Violent Gang Task Forces target the violent gangs and 
their associates responsible for their criminal activity. 
Additionally, they place a specific emphasis on the 
identification of the major violent street gangs, and the 
enterprises, who pose significant threats to our society.
    The FBI is identifying and targeting these gangs as high 
priorities by utilizing our enterprise theory investigation.
    The Major Theft and Transportation Crimes Task Forces 
target violent, major theft groups that include armed 
hijackings, automobile hijackings, and major jewelry rings.
    The Violent Crime Task Forces address specific crime 
problems, including bank robbery, armed robbery, kidnapping, 
extortion, murder for hire, firearms violations, RICO, and 
other violent offenses that fall within the Interstate 
Transportation in Aid of Racketeering and the Hobbs Act 
statutes.
    The Fugitive Task Forces are responsible for locating and 
apprehending the most violent Federal and State fugitives. As 
part of the Safe Streets Violent Crime Initiative to reduce 
violent crime by arresting felons fleeing jurisdiction, these 
task forces were created to specifically apprehend these 
fugitives. They utilize the Federal Unlawful Flight to Avoid 
Prosecution statute.
    It should by noted that the task forces focused on gangs 
are applying investigative techniques and strategies which the 
FBI has successfully used to target traditional organized 
crime, including the development of an intelligence base, 
undercover operations, and the use of various electronic 
surveillance techniques. These task forces pursue the gangs 
through sustained, proactive, multi-divisional, coordinated 
investigations using RICO and Continuing Criminal Enterprise 
statutes. In many cities, task forces are targeting individuals 
or groups associated with the Bloods, Crips, Black Gangster 
Disciples Nation, the MS13, Almighty Latin Kings Nation, 
Jamaican Posses, and other violent gangs, along with outlaw 
motorcycle and prison gangs. By applying the same methods used 
in the successful war on traditional organized crime, the task 
forces are developing racketeering and continue enterprise 
cases to remove the leadership and hopefully the most dangerous 
members of our society.
    Along with gang investigations, the investigation of other 
violent crimes of kidnapping, bank robberies, and drug-related 
murders, as well as an intensified focus on the apprehension of 
dangerous fugitives, continues to be a primary purpose for safe 
streets task forces.
    There are approximately 75 FBI-led Safe Street Task Forces 
focused primarily upon gangs, another 50 Safe Street Task 
Forces focused specifically on violent crimes and fugitives, 
that I mentioned, and another 15 task forces directed at major 
theft and transportation crime matters. We have these in most 
of the States. The Safe Streets Task Forces employed 566 
agents, 63 other Federal agents, and 899 local and State law 
enforcement officies in fiscal year 2003.
    The task forces will significantly support the FBI's 
current Violent Cities Initiative that is intended to reduce 
gang-related crimes of homicide, robbery, and aggravated 
assault in targeted cities of St. Louis, Atlanta, Detroit, 
Baltimore, Washington, Newark, Memphis, New Orleans, Chicago, 
Kansas City, Los Angeles, and New York. Additionally, the task 
forces will support the other FBI initiatives of bank robbery, 
child prostitution, and violent fugitives, in other cities.
    The task force concept increases the effectiveness and 
productivity of limited personnel and logistical resources; it 
avoids duplication of investigations and the consequent 
wasteful expenditure of resources in matters of concurrent 
jurisdiction, while expanding the cooperation and communication 
among the Federal, State, and local law enforcement agencies.
    The task forces allow the application of sophisticated 
investigative techniques normally associated with the complex 
organized crime and racketeering investigations. These 
techniques are frequently not available to local police 
agencies.
    Community outreach is another portion of the--
    Senator Sessions. Mr. Ashley, if you could wrap up, if you 
can.
    Mr. Ashley. Can I hit funding?
    Senator Sessions. Please, go ahead. It is just we are going 
to be interrupted by a series of votes, and it is just going to 
be difficult.
    Mr. Ashley. I am sorry. All right.
    Beginning in 1996, Congress provided a recurring $5 million 
to the FBI. This money was under the Violent Crimes Reduction 
Program. It has been sunsetted. Essentially our costs run over 
$10 million a year, and with the $5 million that has been 
employed to our base, we are going to run approximately $5 
million shortages for the overtime that covers the police 
officers that are participants on these task forces.
    Thank you for your time.
    [The prepared statement of Mr. Ashley appears as a 
submission for the record.]
    Senator Sessions. Very good. Well, that was a good series 
of statements, and I would just like to ask a couple of quick 
questions. If all of you would share in this answer, I would 
appreciate it.
    What are the ages of the gang members you are seeing? How 
young are they and how old are they running nowadays? And has 
that been a change in the last 15 or 20 years? Mr. Fitzgerald, 
do you want to guess on that?
    Mr. Fitzgerald. Senator, the gang members are very young. 
When you say the ones we see, the ones we prosecute are the 
adults because it is very difficult in the Federal system to 
prosecute juveniles, which feeds into what Senator Feinstein 
said about making sure we send a message to the leadership that 
they should understand that there is a penalty for employing 
juveniles. Right now juveniles are an asset that they figure 
they can use, they are expendable, and they won't be 
prosecuted.
    If the leadership understands that juveniles are a 
liability and that the leadership of the gang, which is 
extremely rational, will pay a price for that, it would make a 
difference. But we see lots of young gang members, but we 
prosecute the adults.
    Senator Sessions. Ms. Yang?
    Ms. Yang. I was just going to add, Senator, that you will 
see that same thing with respect to using juveniles for some of 
the more heinous crimes in actually all of the different racial 
groups of gangs. You see it in the Asian gangs, the Hispanics, 
blacks, and also in some of the Aryan Brotherhood cases.
    Senator Sessions. So the leaders in the gangs, are they 
sometimes 25 or 30? Or are they 19 or 20? How does it shake 
out, in your best judgment? Or is it different per gang?
    Ms. Yang. Generally for us, with, I guess, the core gangs 
that I am talking about in Los Angeles City itself, if you are 
upwards of 25, around there, between 20 and 25, you are kind of 
an old guy. You are an OG, an old gangster. They are much 
younger than that, probably--you know, for what we do, as Mr. 
Fitzgerald said, everyone we see is 18 or older, essentially, 
but they are all hovering in that younger--older teen, young 
20s age. But there are many others that are part of the gangs 
that we may not prosecute that we see as part of our 
investigation. Gang membership sometimes begins at birth. You 
are born into a gang. Many of the gangs are on their fourth or 
fifth generation of family members. The entity that I mentioned 
to you earlier, Frogtown, is now on their fifth generation of 
gang membership.
    So it starts very early. It starts in many different ways. 
The young teens are asked to sort of do younger types of 
crimes, running around, picking things up, and then as you get 
a little into the mid-teens is when it starts to step up and 
get a little bit more serious. And, of course, I am speaking in 
a generalized manner, but that is essentially what we have 
seen.
    Senator Sessions. Mr. Christie, will you comment on that?
    Mr. Christie. Yes, we will see in New Jersey, we have seen 
children as young as 7 and 8 years old doing tasks for gangs, 
whether that is running drugs, being couriers on the streets 
for some of these violent street gangs. And I think Debra is 
correct that if you get to be into your 20s, you are a very old 
gang member in New Jersey. Most of the time you will see gang 
members who are dying in their teens and engaged in violent 
acts well before they are the age of majority, and turning 
those violent acts against both younger and older people in the 
community. So the ages can range as low as 7 or 8 years old 
that we have seen, and as Debra said, if you get to be in your 
20s, you are both fortunate that you have not been a victim of 
violence, and you are a gray hair, so to speak, in the gang 
world. It is a problem of--as Pat said, that is the currency. 
These young people are the currency.
    Senator Sessions. Mr. Ashley, have you got any thoughts to 
add?
    Mr. Ashley. That is exactly what we are seeing.
    Senator Sessions. To what extent do people in their 20s 
lead--I guess you have answered that question. There are people 
in their 20s that are leaders, but by the mid-20s, they are 
almost always gone and very few gang leaders would reach 30 
years of age, for example. Any comment on that? I am just 
curious about how it looks out there.
    Mr. Fitzgerald. Senator, I took a peek at a list of birth 
dates for a number of gang dealers we have charged in the last 
couple years, and if there was a bell curve, they were all born 
in the 1970s, and outliers are in the 1980s and some were born 
in the 1960s and one fellow from 1959 creeped in there somehow. 
But I think they are mostly in their 20s, but they are still 
out there. There are some that still make it into their 30s, 
and they are likely to be more sophisticated and more savvy and 
more insulated.
    Ms. Yang. I was just going to add that aside from opting 
out because you are no longer a part of this earth, they still 
participate in the gangs. It may be a more sort of emeritus 
type of role. I hate to use that term in this context, but in 
that capacity, they still participate. There is a situation in 
Los Angeles right now where there is a 42-year-old gang member. 
He participates by essentially victimizing 7- and 8-year-olds, 
sodomizing them, photographing that, and then using that as 
blackmail, threatening to show their mothers the pictures, and 
then getting them to run crimes on behalf of the gang.
    Senator Sessions. All right. We are going to have a 
difficult time. I am just very distressed that the votes are 
the way they are. I understand that there are going to be six 
votes back to back in a minute. I will talk with Senator 
Feinstein and Senator Durbin, but I am not sure with that many 
votes it is feasible to try to come back and forth. But I would 
suggest we go as long as we can, and then we may have to recess 
until we can finish.
    Senator Feinstein?
    Senator Feinstein. Thank you very much.
    I thought the testimony was very interesting, but one of 
the things that cropped up--and I think only Ms. Yang mentioned 
the use of RICO statutes. And if you think about it, the gang 
movement today is growing robustly. It is a bigger criminal 
enterprise than Mafia-type crime ever really was in the United 
States, and it is growing.
    Would it be helpful if there were a new gang statute with 
specific gang crimes as predicates along the line of RICO but a 
different statute? And the crimes would be murder, kidnapping, 
sexual assault, maiming, assault with a deadly weapon, firearms 
offenses, gambling, obstruction of justice, tampering with a 
witness, burglary, distribution of controlled substances, use 
and distribution of explosive materials, and money laundering. 
Do you need a new gang statute along those lines? Or is it 
possible to use RICO effectively in this area?
    Ms. Yang. Senator, I am not sure that I can answer that 
sort of without giving it a little bit more thought and taking 
a look at that as compared to RICO and the VICAR statute. VICAR 
we use a lot because we get a significant penalty when we can't 
prove up the RICO case because it is a little more difficult. 
But there is one thing here that follows through that has 
always been problematic for us, and that is for us to prove the 
interstate nexus, the interstate commerce aspect, because it is 
very difficult in court for us to have to prove up how this 
gang crime is related to some sort of interstate nexus. And 
part of that is in the drafting of the way that some of the 
statutes have done. Part of that is in the court's 
interpretation of what that language means. But that has always 
been very difficult for us, so in any RICO case, we end up 
having to litigate the whole interstate commerce aspect, and 
whether or not, you know, this gang is doing something that is 
affecting interstate commerce or whether or not the particular 
predicate crime really affects interstate commerce. And as you 
know, under RICO we have to prove multiple-predicate crimes.
    That has been the thing that has actually been the most 
difficult for us in Los Angeles. So without answering your 
question directly, that is something--
    Senator Feinstein. So what would be your suggestion? I 
mean, one of the things we know is that these gangs are 
interstate, that they travel interstate, that they move 
firearms interstate, they move narcotics interstate. So the 
question is, I guess, how you draft a statute that deals with 
that. Their spread is interstate.
    Ms. Yang. Right. Perhaps using language that is a little 
more open and broad so that--and I do not have any of the 
language particularly before me, but oftentimes, you know, 
there is particular language that says, you know, a facility of 
interstate commerce, or something like that.
    Senator Feinstein. Would you be willing to take a look at 
our statute and see if you can make any recommendations?
    Ms. Yang. Absolutely, Senator. Actually, I think--is it 
Guillermo Gonzalez from your office?
    Senator Feinstein. Yes.
    Ms. Yang. I met him recently, and he asked me to take a 
look at it. I did not have time because of some other things, 
but I am more than happy to do that.
    Senator Feinstein. Thank you.
    Anybody else have comments on this subject of what we could 
do to give you the tool that you need to prove the interstate 
connections to apply the Federal law?
    Mr. Christie. Senator, I think Debra summarized it really 
well. Whether you are using RICO or whether a new statute was 
developed along the lines that you are discussing, that is 
always the biggest challenge for us as Federal prosecutors in 
these gang cases, because while you are correct that there are 
many different interstate aspects to what they are doing, 
frequently, like within the II Set of the Bloods that I was 
discussing in my testimony, they also are very local. And so, 
you know, you have to be--in New Jersey, it is sometimes a bit 
easier because we have a lot of travel between northern New 
Jersey and New York and southern New Jersey and Philadelphia, 
and so a lot of that, we have maybe a bit of an easier time. 
But I think what Debra suggested in terms of the language in 
any statute that tries to get at this problem, being a little 
more open, a little broader for us to give us an opportunity to 
get into it, whether it is RICO or whether it is a new statute 
as you describe, I think that is really the key for us as 
Federal prosecutors.
    Senator Feinstein. Mr. Fitzgerald?
    Mr. Fitzgerald. And I would add one other thought. 
Currently we use RICO a lot to go after gangs. We also use the 
drug statutes often because most gangs are dealing drugs. When 
we catch them doing drugs, we are going to charge them under 
the drug laws, which are much simpler and have heavy penalties.
    I think if we would look into making a statute or amend 521 
to make it more useful, because prosecutors look at what do I 
get and what do I have to prove out of all this, and RICO wins 
or the drug laws win, we should focus on two things: one would 
be to focus on those gang members who we cannot tie directly to 
drug trafficking, even though we know the gangs themselves are 
trafficking drugs, but tie to violence, because often the 
penalties for violence are less than drugs, so focusing on 
that. And, secondly, focusing on the gang leadership, because 
often you cannot tie the gang leaders directly into drug 
trafficking.
    Those are the things we would look at because, otherwise, 
where we do find drugs, we use the drug laws. And when it gets 
more complicated, we use RICO.
    Senator Feinstein. Would you all support the part of the 
statute which I think is really new and rather consequential, 
and that is, a mandatory minimum of at least 3 years to anyone 
that recruits a youngster to go into one of these gangs?
    Mr. Fitzgerald. Without addressing a particular penalty, 
not having seen the provision, what I would suggest is if we 
are going to focus on recruitment, that we not limit it to the 
person who recruits someone into a gang, because a person could 
be the recruiter and someone else can employ that juvenile, 
someone else can manage and supervise. So whether it is 
changing that statute or whether making a Sentencing Guideline 
provision or an enhancement penalty, the way 924(c) is for 
guns, making anyone who recruits, hires, employs, or supervises 
a juvenile pay some price I think would be important.
    Senator Feinstein. Thank you.
    Mr. Christie. Senator, I would really agree with Pat, 
because what we want to try to do is get up into the leadership 
of these gangs, and oftentimes it is very difficult for us to 
get our way in and up to the top. But if that type of 
recruitment statute that you were discussing was broadened to 
cover the areas that Pat just enumerated, that would be an 
extraordinary tool for us to be able to get at the leadership. 
Let the locals handle some of the street area stuff that they 
can handle. We can then use the Federal resources along with 
them to get up into the leadership. That would be very helpful.
    Senator Feinstein. Will you all work with us on the 
drafting of that part of it so we are sure we have it right?
    Mr. Fitzgerald. We would be delighted to participate.
    Senator Feinstein. Okay.
    Mr. Christie. Absolutely.
    Senator Feinstein. Thank you. Those are my questions. Thank 
you.
    Senator Sessions. Thank you. Very thoughtful.
    Senator Durbin, I think we will let you finish up, and then 
we have probably got to get to our vote.
    Senator Durbin. I will try to take less than the 5 minutes, 
and I just want to ask one question. Pat Fitzgerald talked 
about gangs, drugs, guns. I want to focus on guns for just a 
minute.
    I took a look at some of the statistics on prosecutions for 
gun trafficking, which I think has to be an important part of 
this conversation, and I was concerned with what I learned. The 
period from October 1, 1999, to September 30, 2002, a 3-year 
period of time, in New York State, 105 prosecutions for gun 
trafficking; in Illinois, 16; in the States of Indiana and 
Mississippi, 5 and 3. And the reason I raise those States is 
that Indiana and Mississippi are the source States for more 
crime guns in Illinois than any other States because of their 
lax gun laws and because of the proximity of Indiana.
    Can you explain to me why as the murder rate goes up and 
the gang activity goes up, the prosecutions for gun trafficking 
are so low?
    Mr. Fitzgerald. I cannot explain the statistical numbers. I 
can tell you we are focused on the gun trafficking. I was 
acutely aware and surprised to learn that Mississippi was the 
third largest source of supply State for illegal guns in 
Chicago. I can tell you we found that in Mississippi there is 
an area called Little Chicago where they have gangs that mirror 
the Chicago gangs that were the source of supply.
    I can tell you we prosecuted the gun shop in Mississippi 
that was illegally supplying guns to the gangs last year in 
Chicago and took the owner of the gun shop before a Chicago 
jury, convicted him, and had him sentenced.
    I can also tell you that we sat down with our researcher, 
with ATF, with the Chicago Police Department, and we are 
focused specifically on where the guns are coming from, making 
sure they are traced, and seeing where they came from. And as a 
result, an ATF agent and one or two detectives from the Chicago 
Police Department were detailed to Mississippi. So the Chicago 
Police Department was actually recognizing the problem and sent 
manpower down there to figure out what we can do.
    So we are alert to the issue. We do recognize that we have 
got to go after sources of supply gun trafficking, and when we 
can find it and we look for it, we do prosecute, as we did with 
that gun shop owner from Mississippi convicted in Chicago last 
year.
    Senator Durbin. I would like to follow through, because we 
are out of time, with written questions and I will get into the 
proposal by the administration for the destruction of NCIC's 
records of firearm purchases. And I have a GAO report that 
suggests that that is going to make it more difficult for you 
to do your job, if you do not have the time to check the 
backgrounds of these guns, to run them and to see if there has 
been any violation. And I would like to figure out how that 
plays into all of our conversation about ending gang violence, 
too.
    Thank you, Mr. Chairman.
    Senator Sessions. Thank you.
    The gun matters are important. I challenged the Attorney 
General and the FBI Director to prosecute guns, I believe, more 
aggressively than they have in the past when they were 
confirmed, and I recall that Attorney General Ashcroft said 
that there was, I believe, a 35-percent increase in guns 
prosecutions.
    Give me a quick yes or no on this. Are you receiving 
support for increased gun prosecutions in your office? And are 
you providing the leadership to increase gun prosecutions in 
your district? Do you have a thoughtful plan to do that? I will 
ask each of you three United States Attorneys that.
    Mr. Fitzgerald. Yes to both questions, and I can tell you I 
sit down once a month with a researcher at ATF, DEA, Chicago 
Police Department, and detectives and focus precisely on the 
issue of guns and people who possess them, and also send the 
message that we want to go after traffickers, for example, in 
that case in which we prosecuted the Mississippi gun owner in 
Chicago. It is clear to me that we have to choke off the source 
of supply of illegal guns.
    Senator Sessions. Great prosecution, that is exactly what 
needs to be done, in my view.
    Ms. Yang?
    Ms. Yang. Yes, sir. The answer is yes and yes again. One of 
the things that we are doing through the Project Safe 
Neighborhoods Program is that we sit down with LAPD Chief 
Bratton, we sit down with the sheriffs, all the locals, ATF, 
DEA, the FBI, and we sort of figure out what we can do with the 
gang cases.
    In our particular district, we have a brand-new Ballistics 
Tracing Center that ATF has put up where essentially each 
bullet that is shot, we can determine which gun it is traced 
to, and that allows us to sort of get some history on the gun 
and how it is moving from one individual to another or one gang 
or where it is going to try to get to that.
    Senator Sessions. Good.
    Mr. Christie. Senator, yes to both questions. In New 
Jersey, what I decided to do in our district was to set up the 
separate violent crime unit to focus just on guns and gangs. We 
have ten experienced Assistant U.S. Attorneys who are providing 
the leadership in the district through Project Safe 
Neighborhoods to coordinate the State and local efforts. When I 
got there, I think the efforts were kind of diffuse and not 
very coordinated.
    Senator Sessions. Have the numbers gone up since the time 
you have been there? Do you know?
    Mr. Christie. The numbers have gone up, and just as 
importantly, a State like New Jersey where there are very, very 
tough gun laws in the State, on the State level, we are really 
trying to focus now on gun trafficking because we are receiver 
State. And so our new focus has been in that area more on 
trafficking than it has been on anything else because of the 
fact that our State gun laws are so tough, we are receiver 
State.
    Senator Sessions. I believe that is wise to trace each gun, 
if you see a common source, and I think it is worth the highest 
effort, and I think ATF and FBI and anyone else should be 
willing to follow those cases to whatever State they lead to 
and carry on those investigations. That is the advantage of 
Federal law enforcement. And I am telling you, I have been 
frustrated that people want to pass new laws burdening law-
abiding people, but we have not been enforcing aggressively 
enough the existing laws, which have got some real teeth to 
them, actually. I heard an ad that is absolutely true. Five 
years without parole if you use a gun in a crime in America 
today, and I hope that message gets out. I think it is.
    This is the deal. We have got to go vote. If any of you on 
this panel cannot come back or you have flights and you have a 
hurricane that is worrying you, go ahead and take your flight. 
Senator Feinstein and others may want to ask you some further 
questions. Otherwise, we will go to the second panel when we 
get back. Please do not disrupt your schedule to stay until 
after this vote. It may be 30 minutes or more--it probably will 
be--before we get back.
    [Recess 3:00 p.m. to 3:55 p.m.]
    Senator Sessions. All right. Good to be back. I stayed up 
so late, I got down to the subway, and the subway would not 
work, and I was the last vote to be cast. I almost missed that 
vote. But we apparently are not having as many as we expected, 
and I do not think we will have another vote now, although that 
was not absolutely clear when I left. So I think we will have 
time to go forward and have a good discussion.
    Senator Feinstein needs to get back to California, and she 
needed to get out tonight before the storm, so I do not expect 
her to be able to be back with us this afternoon.
    I thought the first panel was good. We had a panel of 
experts who do the work that is important to us in making the 
kinds of decisions we need to make to improve law enforcement, 
particularly with regard to gangs. This second panel is also 
very extraordinary and valuable to us.
    Eddie Jordan is the elected district attorney in New 
Orleans, Louisiana. He brings a unique perspective to this 
hearing, having served as United States Attorney for the 
Eastern District of Louisiana and prior to his election as 
district attorney. So we have another U.S. Attorney in the 
bunch.
    Robert McCulloch is the elected district attorney for St. 
Louis County, Missouri. He is also the president of the 
National District Attorneys Association. He has a long and 
distinguished career. I look forward to hearing his testimony. 
It is good to see you.
    Wes McBride is the president of the California Gang 
Investigators Association and the former president of the 
National Gang Investigators Association. He brings 35 years of 
law enforcement experience to this problem.
    We have got a time limit, but we may, because of matters 
that are ongoing, not have other Senators that come here. What 
you say will be recorded and it will be part of the record, and 
it will be a factor as we evaluate what to do about improving 
our effectiveness against gangs.
    So if you would each share with us your comments on this 
subject, I guess in the order I introduced you, and I will have 
some questions after that. If we can stay within our time 
limit, then we might have a little time for some exchange.
    Mr. Jordan?

STATEMENTS OF EDDIE J. JORDAN, JR., DISTRICT ATTORNEY, DISTRICT 
             OF NEW ORLEANS, NEW ORLEANS, LOUISIANA

    Mr. Jordan. Good afternoon, Mr. Chairman. My name is Eddie 
Jordan, and I would like to thank the Senate Judiciary 
Committee for providing me with an opportunity to address you 
on the issue of ``Combating Gang Violence in America: Examining 
Effective Federal, State, and Local Law Enforcement 
Strategies.''
    In 1994, then-President Bill Clinton named me the U.S. 
Attorney for the Eastern District of Louisiana. Under my 
leadership, the office successfully prosecuted hundreds of 
violent offenders, corrupt police officer, and most notably, 
powerful Louisiana political and business figures, including 
former Governor Edwin Edwards. Subsequently, I retired from my 
position as U.S. Attorney in 2001 and returned to private 
practice. On November 5th, I was elected District Attorney of 
New Orleans.
    Unfortunately, gang violence is increasing and it is 
evidenced in the number of homicides in New Orleans. Law 
enforcement officials routinely encounter problems whereby 
witnesses are being intimidated or killed because they come 
forward to testify in certain violent crime cases. In 2001, 
there were 212 homicides in New Orleans, and in 2002, that 
number increased to 257. If current trends continue, the 
projected number of homicides for this year will exceed last 
year's number. So far this year, we have had 204 murders.
    According to Tara C. Kowalski, witness intimidation has 
increased dramatically in recent years. In fact, the first half 
of 2001 saw a 50-percent increase in witness intimidation. 
Witness intimidation occurs when defendants or others acting on 
defendants' behalf make threats or otherwise act to dissuade 
victims or eyewitnesses from testifying. Witness intimidation 
directly harms the witnesses involved; moreover, it adversely 
affects society as a whole because, without witnesses' 
testimony, prosecutors are powerless in prosecuting criminal 
offenses.
    In New Orleans, two witnesses who turned down offers by my 
office for assistance and relocation were murdered. In March 
2003, a potential witness was killed near the eve of trial 
after refusing relocation on two occasions. While there was 
insufficient evidence to prove the death was a retaliatory 
killing, the timing of the killing raised suspicion of a 
possible link. Also, in May 2003, another potential witness who 
rejected assistance was killed, along with her companion, 
shortly after testifies before a State grand jury. Many victims 
and witnesses are reluctant to relocate because my office is 
not adequately funded. My office is doing all it can with 
limited resources. Adequate Government financing would allow us 
to better assist victims and witnesses and make the alternative 
of relocation more appealing.
    The following are some of the more notable gang trends 
identified by the National Alliance of Gang investigators in 
their assessment:
    Gangs are migrating from larger cities to smaller 
communities, a move fueled in large part by an increase in gang 
involvement in drug trafficking;
    Most gangs have members who are involved in drug 
trafficking to some extent, ranging from street-level sales to 
wholesale distribution. However, the level of drug trafficking 
by gang members varies regionally;
    Numerous law enforcement agencies report that some gangs 
involved in wholesale drug distribution have connections to 
major international drug-trafficking organizations;
    While the overall violent crime rate has dropped 
nationwide, many smaller communities have experienced 
increases, sometimes double-digit increases, due to gang 
violence;
    Gangs, for the most part, are unsophisticated with little 
or no hierarchical organizational structures; however, some are 
becoming much more organized and sophisticated.
    Before I end, I just wanted to indicate that my office has 
no funds budgeted or allocated for victim and witness 
assistance. Our Victim/Witness Services Division was created in 
1998. The Victim/Witness Services staff provides full services 
to adult victims of certain State crimes, including, but not 
limited to, domestic violence, sexual assault, and stalking. 
But despite inadequate funding, the Victim/Witness Services 
staff provides assistance to witnesses of violent crimes who 
are in danger as a result of their willingness to testify in 
court.
    I would also indicate that in the year 2002, the entire 
division serviced approximately 600 clients. From January 2003 
to July 2003, the seven-person staff made a total of 1,498 
advocacy contacts on behalf of victims of domestic violence and 
permanently relocated a total of 53 witnesses.
    But the costs involved here are substantial. The average 
cost to temporarily house a family of four in New Orleans is 
$365 per week, $100 per week for food, and $50 per week for 
personal items. The costs are substantially more for permanent 
relocation of witnesses.
    So I believe a coordinated approach is necessary to combat 
the gang violence and witness intimidation problems that we are 
facing. Perhaps the creation of a multi-jurisdictional task 
force should be utilized to address gang violence and witness 
assistance issues.
    Thank you.
    [The prepared statement of Mr. Jordan appears as a 
submission for the record.]
    Senator Sessions. Thank you, Mr. Jordan. You make some very 
valuable points.
    Mr. McCulloch?

STATEMENT OF ROBERT P. MCCULLOCH, PRESIDENT, NATIONAL DISTRICT 
          ATTORNEYS ASSOCIATION, ALEXANDRIA, VIRGINIA

    Mr. McCulloch. Senator, my name is Bob McCulloch. I am the 
elected prosecutor in St. Louis County in Missouri and the 
president of the National District Attorneys Association. Of 
course, both of those entities would like to thank you and this 
Committee for taking the time and giving us the opportunity to 
present our views on the issue that is before us, not just gang 
violence but, as Mr. Jordan eloquently pointed out, the problem 
that is very much associated with that, and that in the area of 
witness intimidation. I have provided earlier some written 
remarks that I would like to ask be made part of the permanent 
record.
    Senator Sessions. They will be made a part of the record.
    Mr. McCulloch. Thank you.
    In order to place a lot of this in context, let me talk 
about St. Louis County. St. Louis County surrounds but does not 
include the city of St. Louis. It is a county of about a 
million people. We have about 91 or 92 municipalities within 
that and about 65 police departments. In my office--
    Senator Sessions. Sixty-five police departments?
    Mr. McCulloch. Yes. I have to repeat that several times 
myself.
    Senator Sessions. We have a lot around Birmingham, but not 
65.
    Mr. McCulloch. Sixty-five, and some are in municipalities 
about the size of this room, which is part of the problem, and 
I will address that a little bit.
    In my office, I supervise about 100 people, about half of 
whom--53 total are prosecutors. We handle and prosecute to 
completion 6,000, to 6,500 felony cases a year. Now, not all 
those are gang related, but just to give you a perspective of 
the amount of work that we do, much of it is related. The City 
of St. Louis has a similar size office. It is a smaller 
jurisdiction in terms of population, but a similar size office 
with a similar size staff and a similar caseload.
    My family--I have a very long and, I think, terrific law 
enforcement background. I have been a prosecutor for about 20 
years. Many other members of my family have been in law 
enforcement--my father, uncle, cousins, brothers, both as 
police officers and prosecutors, for well over a hundred years 
if you add all those up. And I say that only partially to brag 
about my family but, more importantly, to point out that even 
with that background, we were part of the massive middle 
America that thought gangs are a problem on the East Coast and 
on the West Coast, particularly in Southern California. If they 
did make their way to our neighborhood. They might make it to 
Chicago, and we have heard about how they have made it to 
Chicago. And I heard my city mentioned in there several times, 
my area mentioned in there. But to point out that this is a 
problem that is pervasive in America.
    In checking with prosecutors across the country, we find 
that gangs have emigrated across the country. Primarily from 
Southern California, and through the Chicago area to 
everywhere. Our gangs have even migrated from our area to some 
of the smaller communities, and that brings me back a little 
bit to the police departments. These gangs are like water. They 
will follow the path of least resistance, and that leads them 
to many of these smaller communities.
    In my neighborhood, especially, where some of these 
communities once were very cozy bedroom communities, they are 
now infested because they do not have the ability, they do not 
have the resources to staff and adequately train and develop a 
police department. And following that path of least resistance, 
we have a number of these municipalities where the gang problem 
is a remarkably serious situation.
    In one small area, we had five murders in a period of about 
14 months. Everyone who was killed and everyone who did the 
killing was between the ages of 17 and 22. And it literally 
involved in some cases walking across the street to sell some 
drugs because you were on the other guy's turf at that point. 
That was the first murder. The second one, of course, would be 
in retaliation for that. The third one we may not know or they 
may not remember what it was about, but it all related and 
stemmed from that.
    While drug trafficking is still the primary function of the 
gangs in our neighborhood, they have expanded out somewhat. And 
along with their expansion comes the violence, and that is 
where the witness intimidation problems come into our office.
    We have a case pending now to illustrate that, and it is 
typical. I will try and get through this quickly before my time 
runs out, but to show that it is unfortunately typical of the 
problem we see in many, many other communities.
    We found a body of a young man who had been shot to death, 
found him on the side of the road. Running his background 
check, we found that he was involved peripherally in the drug 
trade. At least we had some indications of that. Three years 
went by and then we developed information through a snitch that 
this one particular individual was the one who killed him. 
Following up on that, we were able to develop a good, solid 
case on that guy. We now have him in custody on the murder of 
that particular case.
    What happened was the snitch came forward because the guy 
who did the killing had been released from jail. He had been 
released from jail because we already had him in jail on a 
different murder. And when he made bail in that case, our 
witness, our star witness, our only witness, eyewitness to that 
murder, was murdered himself. And that forced the other person 
to come forward and give us some information.
    We now have a similar situation. Although he is in jail, 
his cohorts are not all in jail, and that intimidation goes 
across the board. Similar to across the country, our problem is 
in the funding. We are able to put our witness in this case up 
for a couple days in a motel, a week maybe, maybe send her on a 
bus ride to a distant relative's house. But eventually that 
runs out, and they are going to come back in. And there is just 
no mechanism or funding for a permanent solution to that 
situation, and that has been the biggest difficulty that we 
have.
    I apologize for taking up more time. We do appreciate the 
efforts of this Committee and the Congress and the Senate in 
going into that, and not only applaud and support both as a 
prosecutor in St. Louis and the National District Attorneys 
Association, the funding, the adequate funding to provide for 
the protection for these people who are brave enough or for 
whatever reason come forward in these cases.
    Thank you.
    [The prepared statement of Mr. McCulloch appears as a 
submission for the record.]
    Senator Sessions. Thank you. Well said.
    Our investigator, Mr. McBride.

  STATEMENT OF WESLEY D. MCBRIDE, PRESIDENT, CALIFORNIA GANG 
    INVESTIGATORS ASSOCIATION, HUNTINGTON BEACH, CALIFORNIA

    Mr. McBride. Thank you, Senator. I would like to thank the 
Committee for inviting my testimony. My name is Wes McBride. I 
served 35 years with the Los Angeles County Sheriff's 
Department obtaining the rank of sergeant when I retired in 
2002. I retired as the intelligence sergeant for the Sheriff's 
Department's gang unit. Twenty-eight years of that time I spent 
in the gang unit.
    I am currently the president of the California Gang 
Investigators Association which puts on the largest law 
enforcement gang training in the Nation in partnership with the 
ATF. I am also the past president of the National Alliance of 
Gang Investigators.
    In the nearly three decades that I served in the gang unit, 
I made an extensive study of gangs, and I must tell you that I 
have watched gangs grow in number and sophistication over these 
years. In Los Angeles County, we have hundreds of persons slain 
every year by gang members. I have watched this number grow 
from less than 200 a year to over 807 in our record year of 
1995. Now, that is just gang-related homicides. A phenomenon 
that I have observed over this period is that while there have 
been occasional declines in statistics over the years, these 
respites are only temporary and slowly climb again. The 
declines never seem to set or establish a new record low; 
however, the climb almost always sets a new record for a high.
    We already had some testimony earlier that there are 20,000 
gangs in the Nation, but we have 1,100 of those in Los Angeles. 
Of the 700,000 gang members nationally, we have 100,000 in Los 
Angeles. These gangs started migrating across the country in 
the 1980s and established their presence in nearly every State 
in the Union. They freely cross State lines--
    Senator Sessions. Including Alabama.
    Mr. McBride. Including Alabama, particularly Alabama, in 
the Deep South. They go there a lot. In fact, I interviewed a 
gang member once, and he talked about traveling the triangle. 
The triangle to him was L.A. to St. Louis to Houston and all 
points in between.
    Senator Sessions. And as I recall, we had some connections 
in St. Louis of gang members.
    Mr. McBride. Yes, sir.
    Senator Sessions. And Chicago.
    Mr. McBride. Yes, sir, and particularly the airport in St. 
Louis. And they travel nationally. They bring their inane gang 
violence with them. The L.A. gangs solve their problems with 
violence. You kill the problem, then it is not a problem 
anymore. They have no other problem-solving technique, and they 
bring that technique with them as they travel around the 
Nation.
    They will infect a community when they come into it with 
the disease of gangs, and it is a disease. It is always fatal. 
People die when the gangs arrive. This malignancy of gang 
presence kills a community just as surely as their bullets kill 
people. Gangs so intimidate the citizens of communities that 
they are afraid to testify, which goes to the point that was 
just brought up. They intimidate witnesses as a matter of 
course. It is not uncommon for them to injure or kill 
prospective witnesses. It is not uncommon for gangs to attack 
police officers who come into conflict with them. Many officers 
have lost their lives in the gang wars. However, gangs have 
been known to kill police officer solely because they were 
witnesses against them also, beyond the fact that they are 
interfering with their commerce.
    The most important weapon in the arsenal of gangs is fear. 
Gangs are the master predators of the urban landscape. Their 
ability to instill fear into the community knows no bounds. 
They will kill indiscriminately to make their point, and this 
fear percolates through the community and so underlies all 
aspects of the gang's activity that it becomes part of the 
atmosphere. After a time, physical threats are not needed. The 
threats are unspoken but part of the community culture.
    To counter these threats, strong witness protection 
programs must be put into place.
    Law enforcement responses to gangs have been effective to a 
degree in various cities around the country. The underlying 
problem with current law enforcement approaches is that they 
tend to be crisis driven, short-lived in too many cases. There 
has never been a national coordinated effort to attack gangs. 
There have been effective and deserving programs, but they seem 
isolated to particular locales with little communication 
outside the affected areas.
    I will tell you that the threat of gangs is more realistic 
to the people of this country than any threat of external 
terrorism can possibly make. While many may argue the term 
``urban terrorism'' when speaking of street gangs, gangs 
generate community fear and disillusionment within the 
communities of local government due to the perceived power of 
the gangs. When I encounter people in my travels and lectures, 
they express their fear of gangs.
    Since the tragic events of 9/11, many gang units have been 
reassigned to investigate external terrorism threats active 
within our borders. These investigations are vital; however, 
they should be done in addition to, not instead of.
    One of the disturbing issues that regularly comes to our 
association is the dismemberment of gang units across the 
Nation and the reclassification of what gangs are and gang 
members are in an effort to defuse the gang problem. Ignoring 
gangs is like ignoring cancer. You ignore it, it will come 
back, and it will kill you. Denial is the greatest ally that 
the gangs have, and it gives them room to formulate and take 
over their communities.
    There has been no Federal leadership in the world of gang 
enforcement. Gang enforcement still tends to be done by pockets 
of investigators with little or no communication between these 
isolated pockets.
    Prosecution of street gang members based on current RICO 
statutes are too time-consuming and labor-intensive for local 
gang prosecution. Establishment of RICO requirements can take 
months to years. As an example, in L.A., I mentioned over 
100,000 gang members, thousands and thousands of criminal 
cases. One study out of USC states that 10 to 15 people are 
shot for every one that dies. That is a lot of cases. It would 
overwhelm Federal prosecution. There is an undeterminable 
amount of narcotic and gang-related crime. A few years ago, one 
of the RICO prosecutions that we did took 4 years from 
beginning to end, took 39 people to jail. Of course, they were 
gone forever once they were convicted of a Federal crime. But 
it was out of a gang of 1,000 people. There wasn't a ripple. 
There wasn't a ripple within the gang. It did nothing to lower 
gang violence.
    In concluding, I would like to just say that to effectively 
combat the rising gangs, there must be a multifaceted approach 
to prosecutions, and I will just list four: effective witness 
protection; establishment of a National Gang intelligence 
Center, similar to the National Drug Intelligence Center; 
funding of law enforcement training on street gangs; and 
legislation that eases and streamlines the burden of proving 
RICO cases.
    Thank you, sir.
    [The prepared statement of Mr. McBride appears as a 
submission for the record.]
    Senator Sessions. Very good. Important comments each of you 
have made. I hardly know where to begin.
    I think first I would like to ask you about the status of 
the gang situation in your areas, at the least the two of you, 
and then, Mr. McBride, if you have any comments.
    I have been convinced today and for some time that we have 
a major national gang problem in America. It seems to me, 
however, that in certain communities, gangs go up and then they 
go down. At least in some of our communities in Alabama, I do 
not think the problem is as bad as it was in the 1980s.
    What is your opinion of the overall status in your 
communities? Is it worse today than it was 10, 15 years ago? 
And what do we--let me just ask that first. How do you rate the 
circumstances today? I guess we will start with Mr. Jordan.
    Mr. Jordan. Senator, during my tenure as U.S. Attorney, my 
office prosecuted at least two very high-profile drug gangs, 
the Seventh Ward Soldiers and the Richard Pena Organization. 
These violent drug organizations were responsible for multiple 
murders in the city of New Orleans.
    During my brief tenure so far as district attorney, I have 
not seen any dramatic change in the kinds of gangs that we have 
in the city. I believe that they are still neighborhood-based 
organizations, individuals who are loosely associated with each 
other, and they engage in crimes of convenience, often focused 
around drug activity.
    Senator Sessions. How about you, Mr. McCulloch?
    Mr. McCulloch. Senator, we have a very similar situation. 
We have identified about 4,000 gang members in our county. Our 
county has a million people. Most of them are concentrated in a 
relatively small geographic area. They affiliate themselves 
with a total of about 180, 182 separately identifiable gangs. 
Most of them have some sort of loose affiliation with many of 
the gangs that you have heard about before from Los Angeles, 
from Chicago.
    While the number of crimes generally across the country, 
and certainly in our community, violent crime has decreased, 
the number of crimes that we can absolutely attribute to gang 
activity have also decreased. What we tend to see is that the 
violent crimes and the violent criminals we deal with tend to 
be much more violent than they ever were in the past.
    A very good point made by Mr. McBride is that we focus, we 
tend to focus on the number of people killed. There are many, 
many, many more people who are maimed by these people than are 
actually killed by them. And in the old days, you know, if you 
ganked a drug dealer, they would beat you senseless. But now 
they are going to come back and shoot you and everybody around 
you, and that is the difference that we see. While there may be 
fewer crimes, they are much more violent, much more dangerous.
    Senator Sessions. So you have a more dangerous group of 
gang members. You would not say they are larger today than 10 
or 15 years ago in number.
    Mr. McCulloch. I would say the number has not changed 
drastically.
    Senator Sessions. Mr. McBride, you are the president of the 
California Association of Gang Investigators. How would you 
describe that?
    Mr. McBride. I would say that our gang population is 
static. It is at saturation points now. There was talk earlier 
about the age range of gang members. Our gang members range 
from 9 years old to in their 50s. The median age of an active 
gang member is the late teens, early 20s. And as we apply 
pressure and the gang problem grows and we put more pressure to 
it, it goes down for a while, as I said, and then it comes back 
up. We are on an upswing now. Our gang murders had dropped in 
to the 300s. Last year, there were 650. They are starting to 
climb again.
    I checked just before I came to testify. The Sheriff's 
Department's records indicate we are up 34 percent over last 
year on just gang homicides. So the rise is starting again, and 
as I check with my counterparts across the Nation, that is what 
they are telling me. It is starting to rise once again.
    Senator Sessions. Mr. Jordan, all of you mentioned witness 
intimidation.
    Mr. Jordan. Yes.
    Senator Sessions. That is a very real problem. I found as a 
Federal prosecutor that we could put people in the witness 
protection program if you needed it, and you could arrest 
people and deny them bail, give them a prompt trial under the 
Speedy Trial Act, and they could be gone from the community, 
and you could get witnesses to testify against them. But if the 
courts are crowded, you have to wait a year to get a trial, and 
people have to be released on bail, and they are back in the 
community. I know that makes it more difficult.
    How would you characterize the circumstances that make it 
difficult for your witnesses, increases fear on them? And are 
you suggesting that targeted Federal resources that would help 
you protect key witnesses in very important prosecutions would 
be a good way for the Federal Government to assist in gang 
prosecutions?
    Mr. Jordan. Certainly, Senator, I think that you have 
certainly hit the nail on the head when you say that a 
coordinated effort with Federal law enforcement authorities 
would go a long way toward helping us address the problem of 
witness intimidation at the local level. We have had severe 
problems with getting witnesses to come forward when our 
resources are as limited as they are, and, of course, it makes 
it difficult for us to make a relocation offer appealing to a 
citizen. And that is what we need. We need those kinds of 
resources, but we need to be able to sit down with Federal law 
enforcement authorities and strategize about what can be done 
to protect this family that is facing danger with the prospect 
of one of the members coming forward to testify in a court 
hearing or a trial.
    Senator Sessions. Well, the classic witness protection is 
very, very expensive.
    Mr. McCulloch, in the joint Federal-State task forces, I 
know you participated in that.
    Mr. McCulloch. Yes, sir.
    Senator Sessions. Is there some midway? And I know the 
Federal Government will pay for overtime for local police 
officers and some things of that nature on the part of a task 
force. Could you have some money set aside for witness 
protection, maybe less than the Cadillac Mafia deal, but is 
there something we could do?
    Mr. McCulloch. I think your statement there, I do not think 
anybody could have put it any better than that, some 
strategically placed Federal funding for that very purpose put 
in the hands of the local prosecutors, the local authorities 
for that specific purpose.
    The situation that we have--the two most dangerous times we 
have found across the board on these cases are immediately 
after the crime is committed--during that investigation, when 
the witnesses are most vulnerable, the emotions are running so 
high--and then just before the trial when the witness himself 
is at the greatest risk. And if there is adequate funding to 
perhaps--you know, just those. We can generally, in very rare 
circumstances, I should say, in very extreme circumstances, get 
our witnesses out for those two time periods. But we have found 
now that the intimidation takes various forms. There is the 
classic intimidation of killing the witness, but there are 
other times when it is as subtle as driving by the house. We 
had an arson case. A guy drove by the house of our star witness 
on the arson case, stood outside the house, and just struck 
matches while our witness sat on her porch, blew the match out, 
threw it down, strike another one. It is that sort of 
intimidation, and, frankly, it did scare her, should have 
scared her. We had to get her out. But I think that strategic 
placement of local funds.
    Better than 98, I want to say, percent of the criminal, the 
violent criminal cases in this country are prosecuted at my 
level and Mr. Jordan's level. And that is where that funding, I 
think, needs to be. It has to be there in order to enable us to 
protect those witnesses.
    Senator Sessions. Just a yes or no, if you know. The task 
force monies, when one is set up, Federal and State, and 
Federal will bring in some monies to support that task force, 
are there monies available for witness protection, or do you 
know?
    Mr. McCulloch. I am not 100 percent positive on that.
    Senator Sessions. But it could use up all the money pretty 
quick because it can be expensive.
    Mr. McCulloch. It can go very fast, particularly if it is 
paying overtime to the officers to protect them, yes. And that 
may be a limited amount available for that, but I think most of 
the overtime money goes into the investigation itself as 
opposed to into the protection.
    Senator Sessions. Mr. McBride, I know we talked about in 
California Asian gangs and all. What connection, if any, or 
what factor, if any, is it that the gang members may be illegal 
aliens or citizens? Is that a factor at all?
    Mr. McBride. It is a minor factor. There is a very large 
immigrant gang, the Mara Salvatrucha, the El Salvadoreans that 
have traveled across this country. They were a problem that 
started in the Rampart area of Los Angeles City, spread through 
Central America, back up the eastern coast of the United 
States, almost all illegal aliens there.
    But I would say that no more than 20 percent of our gang 
members in Los Angeles are illegal aliens. Our problem is 
Americans killing Americans.
    Senator Sessions. What about the circumstance with known 
violent juveniles? A small number of juveniles in my experience 
can be very dangerous, and officers have told me they will kill 
you quicker than an older criminal will kill you, with less 
remorse. But I remember the story in New York, when we worked 
on the juvenile crime bill, of a teenager convicted--or 
charged, and convicted, I believe, in juvenile court of a very 
serious crime. It was unknown that that person had also been 
charged and convicted in New Jersey for a similar crime. They 
were let out on bail and they killed somebody the next day.
    The point is that under the juvenile laws, juvenile violent 
criminal records do not go into NCIC and maybe even the 
probation officer and the judge do not know that this gang 
person arrested in Alabama may have had a serious crime of 
violence in Los Angeles or St. Louis.
    Don't you think that with regard to juvenile cases, at 
least cases involving serious violence, should be available in 
the NCIC or crime history so that police officers and probation 
officers and judges would know that? Is that a weakness in our 
system?
    Mr. McCulloch. It is a weakness in our system, absolutely, 
and it falls right in with the fact that juveniles are defined 
differently across the country. At the Federal level, you heard 
that if you are--I believe it is 18. In Missouri, if you are 
17, you are an adult, and there really is no age limit at which 
you can be treated as an adult, depending upon the type of 
crime.
    I think most States have now recognized that those records 
are very important and they have loosened up some, but not 
enough to do a whole lot of good. I still have difficulty 
getting juvenile records in my own jurisdiction.
    Senator Sessions. In your own jurisdiction.
    Mr. McBride?
    Mr. McBride. Yes, sir, that is a real problem. One State I 
saw, they could not even keep juvenile records in the same file 
cabinet as adult records.
    Senator Sessions. I think that is basically the law.
    Mr. McBride. But the problem is there is no national gang 
database either. If there were a database of gang members 
nationally, prosecutors could look up the gang member, maybe 
not his criminal record, if it was still protected by law, 
being a juvenile, but the fact that he is a gang member would 
come to his attention and he could call the investigators in 
these other States and locales. But that does not exist. A 
truly working system does not exist.
    Senator Sessions. Mr. Jordan, do you think that we could do 
better in that?
    Mr. Jordan. Yes, Senator. I think that local prosecutors 
throughout the country could benefit from additional 
information, particularly background information about violent 
individuals. Having that kind of criminal history would put us 
in a much better position to make wiser decisions about 
charging decisions and what kinds of charges--
    Senator Sessions. Whether to charge as an adult or a 
juvenile, for example.
    Mr. Jordan. That is right. That is exactly right.
    Senator Sessions. So the weird situation is if you are 17 
in a lot of States and you commit assault with intent to murder 
and are charged as a juvenile, it is a secret proceeding. It is 
not put in NCIC. They could move to the next State and commit 
another crime, and the judge could release them on bail. They 
could be tried as a juvenile again because nobody knew they had 
this history of violence.
    We tried to fix that, and there were a lot of objections 
which I could not fathom why. The juvenile records are 
extraordinarily protected, but when there is violence involved 
in it, I think we have got to protect the public over the--and 
they should count themselves lucky they were not tried as an 
adult.
    Now, I was thoroughly impressed with and supported Alabama 
departments, both in Birmingham and Mobile, who modeled 
programs on the Boston initiative in which--if you are familiar 
with that, they had a dramatic reduction in murders by 
teenagers in Boston with very intensive supervision, very 
serious law enforcement, and counseling and a lot of other 
things. But I think the key to it was probation officers went 
out at night to their homes on a regular basis to see if Billy 
was at home and in bed like he was supposed to be. And if he 
wasn't, they did something. And so there was credibility in the 
system. It took some money, but then the crime rate just began 
to plummet.
    Do you think our system is so overwhelmed--if you would 
give me just briefly your thoughts on it. Are we so overwhelmed 
we cannot reach that? Or do you think that would work if we had 
the resources to do it throughout America?
    Mr. Jordan. I know, Senator, in Louisiana we have had a 
problem with supervised probation of young people, of adults, 
for that matter, and there are far too few resources put in 
that area. And if we could actually have individuals who are 
monitored very closely by the system during the time before 
trial and certainly after they have been sentenced, that would 
help a lot.
    I think that it could even take the form of electronic 
monitoring as well, and I know there have been a number of 
proposals to that effect. But our State is very poor, and we 
are having a hard time dealing with that particular challenge. 
But I think that, again, this is an area where the Federal 
Government could play a very important role in helping us to 
solve this problem.
    Senator Sessions. The way they did it in Boston is 
probation officers were understandably uneasy going out at 9 
and 10 o'clock at night, so they reached an accord with the 
police department that a police officer would go with the 
probation officer and they would actually go out to homes, 
which requires a commitment from the department and some 
resources.
    I believe in Alabama they changed some people's hours of 
work, from 3 o'clock in the afternoon to 10 o'clock at night, 
probation officers, so they could do that.
    Would either one of you like to comment on that?
    Mr. McBride. I would comment on that we did that in 1979, 
my own unit, the Operation Safe Street on a grant with 
probation officers, and they rode with us. We did the exact 
same thing in 1979 and early 1980, and it absolutely works. 
Absolutely works. We decreased gang crime. We had to give them 
numbers, and we told them we would do it by 15 percent, would 
be our goal. Well, we reduced gang crime in every case 50 
percent in the areas we did that at. It was labor-intensive, 
but it worked like a champ.
    Probation officers rode with our deputy sheriffs, and we 
did home checks. We did everything. We would see them in 
violation as we drove down the street, had a probation officer 
with us, and we took the kid in custody. And it absolutely 
worked. The problem was funding ran out, probation did not have 
any money, and it stopped.
    Senator Sessions. And you have to have a place to put them, 
a judge and a DA that understands the program, and everybody 
has got to be on the same sheet of paper. But it reduced 
murders dramatically where that has occurred.
    Do you have any thoughts about that?
    Mr. McCulloch. Senator, I think it works in all areas. We 
have seen in the use of drug courts, effective use of drug 
courts with the intense supervision that is placed upon them 
with reporting every week. Once a week they are in front of a 
judge, and if there is a slight violation, there is an 
immediate consequence for it. And that really drops our 
recidivism rate for the people that have gone through that 
court down to next to nothing. At least in the short term it 
has. We need to obviously study it over a lengthy period of 
time, but that has worked across the country in other areas.
    One of our problems is, again, back with the juveniles in 
that so many of them are juveniles. We do not have enough 
juvenile officers to supervise anybody right now, much less 
this intense supervision. And it all comes down to funding for 
it.
    Senator Sessions. I am very dubious about a lot of these 
ideas that say pay me now, pay me later. Sometimes they just--
you know, this, that, and the other. But this deal is 
important, and I believe the numbers and the experience shows 
that if you carefully monitor through drug courts, which I 
think are excellent programs for the very reasons you 
mentioned, it makes a difference.
    A New York Times reporter, Fox Butterfield, said that in 
Chicago they spent 3 minutes a case on a juvenile case. It is 
just a revolving door. No attention is paid. No supervision is 
paid. Unless they go to jail, they are out essentially 
unsupervised. A judge has a bad choice then.
    In our juvenile crime bill that we passed in the Senate and 
ended up in a conglomeration over gun issues, it failed over 
that issue alone, and it was terrible, in my view. We tried to 
emphasize that if you have a judge and a court system that has 
got some jail capacity and sufficient probation officers to 
monitor the kids--because they get arrested early. By the time 
they commit a murder, they have been arrested two or three 
times, normally. And then you would see a drop-off in crime, 
and it ends up saving money, I think. It also saves some young 
people's futures.
    Do you have any thoughts about that?
    Mr. Jordan. In Louisiana, Senator, the options with respect 
to juveniles, the options are largely unsupervised probation 
and detention, and those are unacceptable options. I think you 
have to have a number of other alternatives there, particularly 
supervised, some kind of supervised monitoring of young people 
who have run afoul of the law. And until there are more 
alternatives, I think that we are going to continue to see a 
high recidivist rate. And I know that the State is now in the 
process of considering a change to the juvenile code or the 
juvenile regime in such a way that there will be more 
alternatives to the current options that we have today.
    Senator Sessions. There is a limit to what the Federal 
Government should do, in my view. I was a United States 
Attorney for 12 years, and I know it is virtually impossible to 
prosecute a juvenile in Federal court. Maybe that is what 
people wanted. I would, frankly, say that I thought it was--and 
we had it in the legislation to give the U.S. Attorneys a 
little more discretion, Mr. Jordan, as to whether you are 
indicting a group of gang members, and maybe you want to charge 
some juveniles in that group, too. But we failed in getting 
that passed.
    You are experienced prosecutors and investigators. What can 
the Federal Government do overall that would help the most?
    Mr. McCulloch. I hate to sound like a broken record, but as 
you said, the bulk of the cases, whether they are juvenile, 
adult--
    Senator Sessions. Well, 99.999 percent of juvenile cases 
are tried in State courts.
    Mr. McCulloch. Absolutely.
    Senator Sessions. There will not be one of 5,000 tried in 
Federal courts, juvenile cases.
    Mr. McCulloch. Absolutely. And without those resources to 
be there, you know, that is what we are stuck with. We can 
prosecute. We can bring all the juveniles, we can bring all the 
adults we want into a courtroom, and if we want to keep them on 
probation, we have got to have the ability to monitor them. We 
have to have the ability to keep tabs on them, to keep track of 
them so that we are not prosecuting them down the line for some 
more serious crime.
    I will make a blanket statement, and I usually do not do 
that, but I will guarantee nobody, no 18-year-old starts off 
walking down the street and shooting somebody dead. That is not 
the first crime committed by that person.
    Senator Sessions. You are exactly right.
    Mr. McCulloch. And if we can intervene at a much earlier 
time at a point in that, and the problem is there is just no 
funding there. In all honesty, by the time the funding does 
make its way to us, it has been siphoned off into other many 
worthwhile programs, but some that it could be much better 
spent in this regard. As a prosecutor, my goal and the goal of 
most prosecutors, all prosecutors, is to prevent those crimes. 
I would much rather prevent it than prosecute it later, and we 
have to get in at a much, much earlier age and in a much 
earlier stage in the proceedings in order to have any chance of 
doing that.
    Senator Sessions. Well, it is clear to me that you should 
intervene early in the kids who are most at risk. If you had to 
develop a cohort of kids most at risk, it clearly would be kids 
who have already been arrested, who are being arrested at 14, 
15. You can be sure they are heading for big trouble if 
something does not happen. And the judge has control over those 
kids. The court system has them. If a child is misbehaving a 
little in school, who has got the power to do anything there? 
But if they have committed a crime and they are before that 
judge, he can order the family to be involved in counseling.
    In my home town of Mobile, Judge Butler, my law school 
classmate, ran that program for many years. They have broken 
the back of juvenile crime. He expanded the supervision. He 
expanded jail capacity. He said, ``I couldn't lock kids up for 
violation of court orders and probation because they had no 
place to put them. They gave us some additional space,'' and he 
said, ``The amazing thing was we don't need it now.'' He said, 
``Crime has dropped 40 percent among juveniles.'' He is shocked 
at the dramatic decrease. But every youngster that gets 
involved with the court system is given attention. Now they 
have enough time to give them attention.
    It is not just sweetness and light. They are told things 
they have to do, and if they do not do them, the system falls 
through.
    Well, we could talk about this forever, but I know one 
thing. With regard to juvenile crime, it is State and local. 
That is where the rubber meets the road. If we are going to 
fight juvenile crime, we need to strengthen the local systems. 
It would be stupid, poor management, and very bad philosophy 
for the United States Federal Government to try to take over 
the prosecution of juvenile crime. We do not have juvenile 
centers. We do not have juvenile probation officers. We do not 
have juvenile prosecutors. You have all of those things. We do 
not have juvenile judges. And if we can figure out a way to 
assist the States and encourage them to follow intensive 
supervision, lock people up who are violent and dangerous, 
those who you take a chance on, monitor them closely, I think 
that would be helpful. We need to look at this witness 
intimidation, and we will be looking to see and make sure that 
the monies can be available to be used maybe in these joint 
operations, at least, to protect witnesses.
    Do any of you have anything else to share before we 
adjourn?
    Mr. Jordan. Senator, I would just say that I do not think 
Louisiana is unique in the sense that we have a problem with 
providing the kind of supervision that is required in order to 
make certain that people do not become recidivist. I think this 
is a national problem, and that is the way, I think, to ensure 
that you have people who are held accountable, because everyone 
cannot be locked up. But there are a number of people who 
should be very carefully supervised during the time that they 
are out on the streets so that we can make sure that they are 
not getting into trouble again and not getting other people 
into trouble as well.
    So I think that the Federal Government really has an 
interest in helping local law enforcement authorities to deal 
with this problem. The U.S. Attorney should not be prosecuting 
juveniles, but certainly local prosecutors and local law 
enforcement authorities need a lot more resources if they are 
to effectively address this problem.
    Senator Sessions. Well said. I think there is a principle 
that the Federal Government does not need to become an 
essential funder of State criminal justice systems. But our 
national centers should be the center for research and 
assistance to local people. We can set up some grant programs 
to help energize new systems for States and help them make 
decisions, to leap forward and change the way they do business. 
And I certainly support that.
    I also was impressed, Mr. Jordan, with Mr. Connick's ideas 
about drug testing in schools. I do not know how far he got 
there in Louisiana with that for school kids. But this country 
eliminated drugs in the military through drug testing, and I 
believe we could make dramatic progress in that, and we would 
identify early kids that are heading for trouble. Mom and Daddy 
would know that maybe some of their misbehavior was tied to 
drug use.
    Mr. Jordan. I think that drug testing has to be part of a 
comprehensive program. Testing alone would not be sufficient to 
deter young people from getting involved with drugs.
    Senator Sessions. Well, I have a little different view of 
it. I do not think you need to arrest them, charge them, or 
even necessarily kick them out of school. But I think if a 
school says no drugs in our school and a child tests positive 
for drugs and Mother and Daddy are called and there is a little 
conference here, and if they need to go to counseling and be 
put on even more strict testing, I think the drug courts have 
shown that kind of monitoring does--can change behavior.
    But, anyway, we could talk about that one forever. It is 
just one of my insights that I have had, and Mr. Connick came 
and saw me one time, and he was a big promoter of it.
    Thank you so much for your excellent testimony. I value it 
greatly. It will be a part of the record. And I know that this 
Committee will move forward to try to do what we can to deal 
with the problem of gangs shortly.
    Thank you. We are adjourned.
    [Whereupon, at 4:50 p.m., the Committee was adjourned.]
    [Other related material being retained in Committee files.]
    [Questions and answers and submissions for the record 
follow.]

[GRAPHIC] [TIFF OMITTED] T3250.001

[GRAPHIC] [TIFF OMITTED] T3250.002

[GRAPHIC] [TIFF OMITTED] T3250.003

[GRAPHIC] [TIFF OMITTED] T3250.004

[GRAPHIC] [TIFF OMITTED] T3250.005

[GRAPHIC] [TIFF OMITTED] T3250.006

[GRAPHIC] [TIFF OMITTED] T3250.007

[GRAPHIC] [TIFF OMITTED] T3250.008

[GRAPHIC] [TIFF OMITTED] T3250.009

[GRAPHIC] [TIFF OMITTED] T3250.010

[GRAPHIC] [TIFF OMITTED] T3250.011

[GRAPHIC] [TIFF OMITTED] T3250.012

[GRAPHIC] [TIFF OMITTED] T3250.013

[GRAPHIC] [TIFF OMITTED] T3250.014

[GRAPHIC] [TIFF OMITTED] T3250.015

[GRAPHIC] [TIFF OMITTED] T3250.016

[GRAPHIC] [TIFF OMITTED] T3250.017

[GRAPHIC] [TIFF OMITTED] T3250.018

[GRAPHIC] [TIFF OMITTED] T3250.019

[GRAPHIC] [TIFF OMITTED] T3250.020

[GRAPHIC] [TIFF OMITTED] T3250.021

[GRAPHIC] [TIFF OMITTED] T3250.022

[GRAPHIC] [TIFF OMITTED] T3250.023

[GRAPHIC] [TIFF OMITTED] T3250.024

[GRAPHIC] [TIFF OMITTED] T3250.025

[GRAPHIC] [TIFF OMITTED] T3250.026

[GRAPHIC] [TIFF OMITTED] T3250.027

[GRAPHIC] [TIFF OMITTED] T3250.028

[GRAPHIC] [TIFF OMITTED] T3250.029

[GRAPHIC] [TIFF OMITTED] T3250.030

[GRAPHIC] [TIFF OMITTED] T3250.031

[GRAPHIC] [TIFF OMITTED] T3250.032

[GRAPHIC] [TIFF OMITTED] T3250.033

[GRAPHIC] [TIFF OMITTED] T3250.034

[GRAPHIC] [TIFF OMITTED] T3250.035

[GRAPHIC] [TIFF OMITTED] T3250.036

[GRAPHIC] [TIFF OMITTED] T3250.037

[GRAPHIC] [TIFF OMITTED] T3250.038

[GRAPHIC] [TIFF OMITTED] T3250.039

[GRAPHIC] [TIFF OMITTED] T3250.040

[GRAPHIC] [TIFF OMITTED] T3250.041

[GRAPHIC] [TIFF OMITTED] T3250.042

[GRAPHIC] [TIFF OMITTED] T3250.043

[GRAPHIC] [TIFF OMITTED] T3250.044

[GRAPHIC] [TIFF OMITTED] T3250.045

[GRAPHIC] [TIFF OMITTED] T3250.046

[GRAPHIC] [TIFF OMITTED] T3250.047

[GRAPHIC] [TIFF OMITTED] T3250.048

[GRAPHIC] [TIFF OMITTED] T3250.049

[GRAPHIC] [TIFF OMITTED] T3250.050

[GRAPHIC] [TIFF OMITTED] T3250.051

[GRAPHIC] [TIFF OMITTED] T3250.052

[GRAPHIC] [TIFF OMITTED] T3250.053

[GRAPHIC] [TIFF OMITTED] T3250.054

[GRAPHIC] [TIFF OMITTED] T3250.055

[GRAPHIC] [TIFF OMITTED] T3250.056

[GRAPHIC] [TIFF OMITTED] T3250.057

[GRAPHIC] [TIFF OMITTED] T3250.058

[GRAPHIC] [TIFF OMITTED] T3250.059

[GRAPHIC] [TIFF OMITTED] T3250.060

[GRAPHIC] [TIFF OMITTED] T3250.061

[GRAPHIC] [TIFF OMITTED] T3250.062

[GRAPHIC] [TIFF OMITTED] T3250.063

[GRAPHIC] [TIFF OMITTED] T3250.064

[GRAPHIC] [TIFF OMITTED] T3250.065

[GRAPHIC] [TIFF OMITTED] T3250.066

[GRAPHIC] [TIFF OMITTED] T3250.067

[GRAPHIC] [TIFF OMITTED] T3250.068

[GRAPHIC] [TIFF OMITTED] T3250.069

[GRAPHIC] [TIFF OMITTED] T3250.070

[GRAPHIC] [TIFF OMITTED] T3250.071

[GRAPHIC] [TIFF OMITTED] T3250.072

[GRAPHIC] [TIFF OMITTED] T3250.073

[GRAPHIC] [TIFF OMITTED] T3250.074

[GRAPHIC] [TIFF OMITTED] T3250.075

[GRAPHIC] [TIFF OMITTED] T3250.076

[GRAPHIC] [TIFF OMITTED] T3250.077

[GRAPHIC] [TIFF OMITTED] T3250.078

[GRAPHIC] [TIFF OMITTED] T3250.079

[GRAPHIC] [TIFF OMITTED] T3250.080

[GRAPHIC] [TIFF OMITTED] T3250.081

[GRAPHIC] [TIFF OMITTED] T3250.082

[GRAPHIC] [TIFF OMITTED] T3250.083

[GRAPHIC] [TIFF OMITTED] T3250.084

[GRAPHIC] [TIFF OMITTED] T3250.085

[GRAPHIC] [TIFF OMITTED] T3250.086

[GRAPHIC] [TIFF OMITTED] T3250.087

[GRAPHIC] [TIFF OMITTED] T3250.088

[GRAPHIC] [TIFF OMITTED] T3250.089


</pre></body></html>
